No.

In the Supreme Court of the United States
CARGILL, INCORPORATED,
Petitioner,
v.
JOHN DOE I, ET AL.,
INDIVIDUALLY AND ON BEHALF OF PROPOSED CLASS
MEMBERS,
Respondents.
CERTIFICATE OF SERVICE
I, Andrew J. Pincus, counsel for Cargill, Incorporated hereby certify that on
this 3rd day of October, 2019, I caused three copies of the Petition for a Writ of
Certiorari of Cargill, Incorporated to be served by overnight delivery on the
following counsel:
Paul Hoffman
Catherine Sweetser
John Washington
Schonbrun Seplow Harris & Hoffman LLP
11543 West Olympic Boulevard
Los Angeles, CA 90064
Tel: (310) 396-0731
Terrence Collingsworth
International Rights Advocates
621 Maryland Avenue NE
Washington, DC 20002
Tel: (202) 543-5811
Attorneys for Respondents

Theodore J. Boutrous Jr.
Perlette Michè le Jura
Gibson, Dunn & Crutcher LLP
333 South Grand Avenue
Los Angeles, CA 90071
Tel: (213) 229-7000
Neal Kumar Katyal
Craig A. Hoover
Hogan Lovells US LLP
555 Thirteenth Street, N.W.
Washington, D.C. 20004
Tel: (202) 637-5600
Benjamin A. Fleming
Hogan Lovells US LLP
390 Madison Avenue
New York, NY 10017
Counsel for Petitioner in related case: SC
Dkt. No. 19-416

I further certify that all parties required to be served have been served.
____/s/ Andrew J. Pincus_________
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

